<html>
<title> - CHALLENGES ASSOCIATED WITH ACHIEVING FULL DENTAL READINESS IN THE RESERVE COMPONENT</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


                         [H.A.S.C. No. 110-152]
 
   CHALLENGES ASSOCIATED WITH ACHIEVING FULL DENTAL READINESS IN THE 
                           RESERVE COMPONENT 

                               __________

                                HEARING

                               BEFORE THE

               OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

                                 OF THE

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             APRIL 23, 2008


                                     
              [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                                     
                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

43-787 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 

  









               OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

                     VIC SNYDER, Arkansas, Chairman
JOHN SPRATT, South Carolina          W. TODD AKIN, Missouri
LORETTA SANCHEZ, California          ROSCOE G. BARTLETT, Maryland
ELLEN O. TAUSCHER, California        WALTER B. JONES, North Carolina
ROBERT ANDREWS, New Jersey           JEFF MILLER, Florida
SUSAN A. DAVIS, California           PHIL GINGREY, Georgia
JIM COOPER, Tennessee                K. MICHAEL CONAWAY, Texas
HANK JOHNSON, Georgia                GEOFF DAVIS, Kentucky
JOE SESTAK, Pennsylvania
                    Sasha Rogers, Research Assistant
                 Tom Hawley, Professional Staff Member
                      Mark Parker, Staff Assistant










                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2008

                                                                   Page

Hearing:

Wednesday, April 23, 2008, Challenges Associated with Achieving 
  Full Dental Readiness in the Reserve Component.................     1

Appendix:

Wednesday, April 23, 2008........................................    27
                              ----------                              

                       WEDNESDAY, APRIL 23, 2008
   CHALLENGES ASSOCIATED WITH ACHIEVING FULL DENTAL READINESS IN THE 
                           RESERVE COMPONENT
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Akin, Hon. W. Todd, a Representative from Missouri, Ranking 
  Member, Oversight and Investigations Subcommittee..............     2
Snyder, Hon. Vic, a Representative from Arkansas, Chairman, 
  Oversight and Investigations Subcommittee......................     1

                               WITNESSES

Bodenheim, Col. Mark, USA, Chief, Reserve Component Mobilization 
  and Demobilization Operations, U.S. Army Dental Command........     5
Hart, Col. Deborah L., USAF, Mobilization Assistant to the Air 
  Force Assistant Surgeon General for Dental Services, Office of 
  the Surgeon General, U.S. Air Force............................    10
Krause, Capt. Kerry J., USN, Reserve Affairs Officer, U.S. Navy 
  Dental Corps...................................................     8
Martin, Col. Gary C., USAF, Chief, Dental Care Branch, TRICARE 
  Management Activity............................................     3
Sproat, Col. David, USA, Chief Surgeon, Army National Guard......     7

                                APPENDIX

Prepared Statements:

    Akin, Hon. W. Todd...........................................    33
    Bodenheim, Col. Mark.........................................    39
    Hart, Col. Deborah L.........................................    62
    Krause, Capt. Kerry J........................................    58
    Martin, Col. Gary C..........................................    34
    Snyder, Hon. Vic.............................................    31
    Sproat, Col. David...........................................    53

Documents Submitted for the Record:

    [There were no Documents submitted.]

Questions and Answers Submitted for the Record:

    Dr. Snyder...................................................    73
   CHALLENGES ASSOCIATED WITH ACHIEVING FULL DENTAL READINESS IN THE 
                           RESERVE COMPONENT

                  House of Representatives,
                       Committee on Armed Services,
                 Oversight and Investigations Subcommittee,
                         Washington, DC, Wednesday, April 23, 2008.
    The subcommittee met, pursuant to call, at 2:28 p.m., in 
room 2212, Rayburn House Office Building, Hon. Vic Snyder 
(chairman of the subcommittee) presiding.

  OPENING STATEMENT OF HON. VIC SNYDER, A REPRESENTATIVE FROM 
 ARKANSAS, CHAIRMAN, OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

    Dr. Snyder. The hearing will come to order.
    Good afternoon. Welcome to the Subcommittee on Oversight 
Investigations hearing, the first hearing to discuss the 
challenges associated with achieving full dental readiness in 
the Guard and Reserve. And before proceeding with my opening 
statement, I want to acknowledge all of the work that the staff 
and the members did on our report on the Provincial 
Reconstruction Teams. I just went on the Web site for the House 
Armed Services Committee. It is on the Web site. So if anybody 
wants to read it, they can. There will be hard copies coming 
out later. It is armedservices.house.gov for those people that 
are interested.
    The Reserve component is transforming from a strategic to 
an operational reserve. We need to give our men and women in 
the Guard and Reserve the tools they need to take up this 
mission. The most important thing they bring to the table is 
themselves, their health and the mental and dental readiness of 
the force. Oral health is an often overlooked, but as we are 
learning, extremely important aspect of overall pre-deployment 
readiness. The Department of Defense (DOD) has said that 95 
percent of military personnel, active and Reserve, should fall 
into Class 1 or Class 2 dental fitness categories, meaning that 
they are healthy enough to deploy.
    Right now none of the services are meeting these goals 
through the Reserve component, but the Army and Marine Corps 
have struggled the most. It is a public health issue for the 
country, but it is also a readiness issue for our military. 
Only 43.2 percent of the Army National Guard and 50.6 percent 
of the Army Reserve is currently ready to deploy. Only 77.7 
percent of the Marine Corps Reserve is ready to deploy. But 
since none of the services are meeting the DOD goal, I hope we 
are going to figure out why today.
    Today we will hear about some of the challenges the 
services face and how they are facing them. I hope we will hear 
some good ideas about how these issues can be addressed in the 
future. I know that the Army National Guard's 39th Infantry 
Brigade in my home district in Arkansas struggle with many of 
these challenges when they recently deployed to Iraq for their 
second tour, and these challenges occurred during their first 
tour several years ago also. I am proud of their hard work and 
the creative ways in which they accomplished the pre-
mobilization and readiness mission under adverse conditions, 
but they encountered additional challenges at the mobilization 
station, and we still have work to do.
    Improving dental readiness rates in the Reserve component 
will require a combination of command emphasis, accountability 
on the part of the individual services, service members, 
incentives and possibly programmatic changes. That is why we 
are here. That is what we are here to talk about today, and I 
look forward to having a good discussion.
    I also want to acknowledge the presence with us today of 
Congressman Buyer, who is the ranking member on the House 
Veterans' Affairs Committee, and he and I have talked about 
dental issues on and off for some time. And I would ask 
unanimous consent that he be allowed to participate. Now, I 
would like to hear Mr. Akin's opening statement for any 
comments he would like to make.
    [The prepared statement of Dr. Snyder can be found in the 
Appendix on page 31.]

STATEMENT OF HON. W. TODD AKIN, A REPRESENTATIVE FROM MISSOURI, 
   RANKING MEMBER, OVERSIGHT AND INVESTIGATIONS SUBCOMMITTEE

    Mr. Akin. Thank you, Mr. Chairman.
    Thank you witnesses for joining us here today.
    The hearing clearly demonstrates the value of our 
subcommittee and the good we can do for our men and women in 
uniform. At first glance, dental readiness may not seem to be a 
subject Congress would focus on. And, in fact, I don't remember 
any previous hearings on the topic. Upon great reflection, 
though, all would conclude that the dental readiness is a very 
timely and critical topic. Armies throughout history have 
suffered more casualties from sickness than from combat-
inflicted wounds, and today's military forces are no exception.
    Indeed, medical and dental readiness are key components of 
ensuring units are ready to deploy and effectively perform 
their missions in combat. Our witnesses are well grounded in 
the challenges of ensuring members of the Army, Navy, Marine 
Corps and Air Force Reserve components are dentally ready to 
deploy and in the effectiveness of Department of Defense and 
individual service approaches to this issue. I would not want 
to be in their shoes. I cannot imagine a more difficult job 
than theirs, find ways to entice relatively juvenile Reserve 
component service members, most on limited income, to undergo 
periodic dental examination and treatment with sometimes 
minimal reimbursement so they can deploy to Iraq for 12 or 15 
months.
    Frankly, I am surprised that anyone goes to the dentist 
with a command tour in Iraq as a reward of compliance. In 
reviewing your testimony, I understand that each component 
faces somewhat different obstacles and has chosen to manage the 
problem in different ways. I look forward to hearing about your 
programs, any recommendations that you would have and how we in 
Congress can help to make your job easier. Thank you very much.
    And thank you, Mr. Chairman.
    [The prepared statement of Mr. Akin can be found in the 
Appendix on page 33.]
    Dr. Snyder. Thank you, Mr. Akin.
    We are pleased to have with us today Colonel Gary Martin, 
United States Air Force, the chief of the Dental Care Branch of 
TRICARE management activity; Colonel Mark Bodenheim, the chief 
of the Reserve Component Mobilization and Demobilization 
Operations, U.S. Army Dental Command; Colonel David Sproat, the 
chief surgeon of the Army National Guard; Captain Kerry Krause, 
the Reserve Affairs Officer for the U.S. Navy Dental Corps; 
Colonel Deborah Hart, mobilization assistant to the Air Force 
assistant surgeon general for dental services, Office of the 
Surgeon General, United States Air Force.
    It is my understanding that none of you have testified 
formally before Congress before; is that correct? Well, I want 
you to relax. You may feel a little pinch. You may hear some 
strange sounds and smell some funny smells, but ignore them. We 
are going to play some music for you to help you relax. I have 
always wanted to say that to dentists. This was my chance.
    Now, we appreciate you all being here. Your written 
statements, without objection, will be made a part of the 
record, and I will have Sasha put on the light. When you see it 
go red, if you have got more things to tell us, we want you to 
go ahead. But it is just to give you an idea of when five 
minutes have gone by. We anticipate there will be votes some 
time in the next 10, 15, 20 minutes, which will interrupt us. 
But we will go as far as we can with opening statements.
    So, Colonel Martin, we will begin with you.

  STATEMENT OF COL. GARY C. MARTIN, USAF, CHIEF, DENTAL CARE 
              BRANCH, TRICARE MANAGEMENT ACTIVITY

    Colonel Martin. Thank you, Mr. Chairman, and distinguished 
members of the subcommittee. I thank you for your strong 
interest in improving the dental readiness of Reserve and 
National Guard service members.
    As the chief of the Dental Care Branch of the TRICARE 
Management Activity, I am responsible for the management of the 
various Department of Defense dental programs that provide care 
to beneficiaries. Today I will provide a brief explanation of 
DOD's Oral Health and Readiness Classification System, discuss 
the current state of Reserve component dental readiness and 
give an overview of dental programs available to Reserve 
component members.
    For over 24 years, DOD has successfully gauged the dental 
readiness of the active and Reserve components through the Oral 
Health and Readiness Classification System. The various 
classifications in this system are:
    Dental Class 1, individuals with a current dental 
examination who do not require dental treatment or 
reevaluation, healthy service members who are worldwide 
deployable.
    Dental Class 2, individuals with a current dental 
examination who have oral conditions, diseases that require 
non-urgent care or reevaluation. These are oral conditions 
which are likely to result in a dental emergency within 12 
months. These service members are also worldwide deployable.
    Dental Class 3, individuals who require urgent or emergent 
dental treatment that if not accomplished will likely result in 
a dental emergency within 12 months. Class 3 individuals are 
not worldwide deployable.
    And Dental Class 4, individuals who have not obtained 
periodic dental examinations or patients with an unknown dental 
classification. Class 4 individuals are not worldwide 
deployable.
    Over the past 12 months, Individual Medical Readiness 
reports for the Reserve component have not shown any 
significant change. None of the services meet the DOD goal of 
95 percent dental readiness. As of January 2008, the Army 
National Guard was at 43.2 percent; Army Reserve 50.6 percent; 
Marine Corps Reserve, 77.7 percent; Air Force Reserve, 84.9 
percent; Air Force National Guard, 88.8 percent; and the Navy 
Reserve was 90.0 percent.
    The majority of the Class 3 dental conditions in our 
service members are a result of dental decay, which is a 
chronic infectious disease. To properly treat and prevent 
dental decay, individuals at high risk for this disease must 
modify their diets and eating behaviors and practice good daily 
oral hygiene. If these measures are not taken, dental decay may 
recur, often resulting in more extensive treatment needs such 
as a larger filling, root canal, and/or a crown, and just a 
little pinch.
    Several studies have validated the importance of DOD's Oral 
Health and Readiness Classification System. A published study 
by the Tri-Service Center for Oral Health showed that the 
dental emergency rate for Class 3 personnel is 8.8 times higher 
than personnel in Class 1 and 3.9 times higher than the rate in 
Class 2 personnel. A recent report on 900 Air Force personnel 
deployed for 120 days found that only 1.7 percent received any 
needed dental care during the deployment. Almost 65 percent of 
these personnel were dental Class 1 when deployed. If we deploy 
personnel in good oral health, their chances for a dental 
emergency during the deployment are significantly reduced.
    There are several programs available to improve the dental 
health of the Reserve component members. I would like to 
highlight those programs for you today. For Reserve component 
members without employee-sponsored dental insurance, DOD offers 
the TRICARE Dental Program (TDP), a comprehensive dental 
insurance program for active duty family members, Reserve 
component members and their families. Over the past 2 years 
about 8 to 10 percent of eligible Reserve members have enrolled 
in this program. The Air Guard has the highest enrollment with 
21.8 percent. The lowest enrollment rate is in the Marine Corps 
Reserve at only 2.8 percent. The government pays 60 percent of 
the monthly premium, and the reservist pays 40 percent. 
Currently the reservist pays a low monthly premium of $11.58. 
The TDP provides an annual maximum payment for dental services 
of $1,200 with cost shares for the more expensive procedures, 
such as root canals, crowns and extractions. Most preventive 
services, like cleanings and exams, are covered at 100 percent 
and do not count toward the annual maximum payment.
    For Fiscal Year 2007, 71.6 percent of the reservists 
enrolled in the TRICARE Dental Program utilized at least one 
covered procedure. The TDP network of dentists is quite large 
with over 84,434 participating dental offices. This includes 
63,555 general dentist locations and 20,769 specialist 
locations.
    In addition, the Reserve Health Readiness Program provides 
dental care for reservists. This program has a network of 
contracted dentists that provide dental exams and Class 3 
treatment needs to assist reservists in achieving and 
maintaining dental readiness. During the past 12 months, 
approximately 180,000 reservists received their annual dental 
exam and 7,500 Class 3 patients received the required dental 
care in this program; 92 percent of the reservists who received 
their exams and treatments were Army.
    Reservists on 90-day activation orders are eligible for 
dental care at the same level as active duty service members. 
The majority of this dental care is provided in military dental 
treatment facilities, when needed. Referrals are also made to 
dentists in the private sector.
    The Transitional Assistance Management Program, commonly 
referred to as TAMP, includes a dental benefit for recently 
deactivated or separated military members. This program 
provides space-available care in military dental treatment 
facilities for 180 days from the date of leaving active duty 
status. Unfortunately, few facilities have space available to 
treat these members. But reservists who are deactivated and who 
will remain in the Reserves are eligible to enroll in the 
TRICARE Dental Program.
    Finally, all service members who are separated from active 
duty receive a certificate of release or discharge from active 
duty. A section of this form documents whether there are any 
dental conditions requiring treatment that DOD could not 
provide prior to separation. If treatment is required, the 
member may apply for Veterans Affairs (VA) treatment within 180 
days from release from active duty. On average, about 18 
percent of eligible deactivated reservists have utilized this 
benefit over the past 3 years.
    Mr. Chairman, distinguished subcommittee members, thank you 
for your interest in improving the dental readiness of our 
National Guard members and reservists. As you can see, the 
department offers several options to improve the dental 
readiness of these service members. We look forward to your 
continued support as we work together to improve the oral 
health of Reserve component members. I will be happy to answer 
any questions that you may have.
    [The prepared statement of Colonel Martin can be found in 
the Appendix on page 34.]
    Dr. Snyder. Thank you, Colonel Martin.
    Colonel Bodenheim.

STATEMENT OF COL. MARK BODENHEIM, USA, CHIEF, RESERVE COMPONENT 
 MOBILIZATION AND DEMOBILIZATION OPERATIONS, U.S. ARMY DENTAL 
                            COMMAND

    Colonel Bodenheim. Yes, Mr. Chairman and distinguished 
members of the committee, I want to thank you for allowing me 
to speak to you about Army Reserve component dental readiness.
    In my written testimony, I have outlined an extensive 
historical perspective of dental readiness for the Army active 
and Army Reserve components. To summarize, by the first Gulf 
War, active component units were able to deploy with minimal 
pre-deployment dentistry requirements due to their high levels 
of baseline dental readiness, while at the same time Army 
Reserve component units arrived at extremely high rates of 
unreadiness. This happened again at the beginning of the global 
war on terror.
    Since 2004, the Army active and Reserve component dental 
subject matter experts have cooperated to improve dental 
readiness report rates to the mobilization platforms by 
standardizing exam protocols and documentation, the validation 
process at the mobilization platform and storage of digitized 
dental information for further use. These improvements have 
reduced no-go rates to the mobilization platforms from 87 
percent no-go in 2004 to the present rates that you see in 
table one in Fiscal Year 2006 and 2007.
    During the first half of Fiscal Year 2008, more dramatic 
improvements occurred, especially by the Army National Guard 
brigade combat teams (BCTs). And I attribute these improvements 
in dental readiness due to a combination of, first, Army 
command emphasis directed to the BCT commanders, initiation of 
the Reserve component dental readiness systems early in the 
alert phase, and diligent work done by the State dental 
surgeon.
    In table two, you can see, of my written testimony, you can 
see a comparison on the BCT units and smaller size units. And 
you can see that the smaller size units report with less 
favorable rates of dental readiness. And I attribute this to 
less command emphasis and a larger percent of cross-leveling 
from non-alerted units that are not eligible for Dental Fitness 
Class 3 (DFC 3) care. As an example, over 6 percent of the 39th 
BCT was cross-leveled as replacement soldiers after reporting 
to Camp Shelby after the main body had reported, and over 26 
percent of those were DFC 3. I use this example to point out a 
major issue. Army Reserve component soldiers may be mobilized 
with short notice at any time. And if not afforded DFC 3 care, 
regardless of alert status, prior to mobilization, then they 
lose training time at the mobilization platform remedying those 
DFC 3 conditions.
    For the first half of Fiscal Year 2008, it is estimated 
that over 3,500 10-hour duty days had been lost remedying DFC 3 
conditions of mobilization platforms. In my written testimony, 
I have described a present mobilization and demobilization 
operating procedures, and I will refer you there for the 
details of those operations in their present format. In my 
written testimony, I have described the challenges to achieving 
better Army Reserve component dental readiness. And suffice it 
to say, the challenges are complex and will require a multiple 
set or dashboard of solutions.
    Within his first 100 days, the Army surgeon general 
directed a complete review of the Army Reserve component dental 
readiness system, and the assistant surgeon general for forced 
projection assembled a multicomponent work group in March 2008 
to conduct a capabilities-based assessment and develop a 
prioritized list of courses of action. These courses of action 
are currently being worked through the Army leadership.
    In conclusion, I want to thank you, Mr. Chairman, and the 
distinguished members of the subcommittee for your interest and 
support in improving Army Reserve component dental readiness 
and in maintaining our human weapon system, our soldiers.
    Thank you.
    [The prepared statement of Colonel Bodenheim can be found 
in the Appendix on page 39.]
    Dr. Snyder. Thank you, Colonel.
    Colonel Sproat.

   STATEMENT OF COL. DAVID SPROAT, USA, CHIEF SURGEON, ARMY 
                         NATIONAL GUARD

    Colonel Sproat. Chairman Snyder, Ranking Member Akin, 
distinguished members of the committee, thank you for this 
opportunity to come before you to address concerns of the 
dental readiness of the soldiers of the Army National Guard.
    Dental readiness of our citizen soldiers is a critical 
element in our ability to meet Army deployment requirements. As 
you know, the Army National Guard's transition to an 
operational force has dramatically increased demands on your 
citizen soldiers. Historically, our soldiers and leaders relied 
on a lengthy mobilization process to address dental readiness 
issues.
    In February 2007, the Department of Defense implemented a 
12-month mobilization policy. This policy is good for the Guard 
and takes soldiers away from their families and employers for 
less time. However, dental readiness must now be addressed at 
the home station.
    The Army National Guard medical team in conjunction with 
our U.S. Army Dental Command colleagues has successfully 
managed this transition. Since the beginning of the fiscal 
year, States have prepared 5 brigade combat teams for 
deployment, sending their units to the mobilization (MOB) 
station over 90 percent dentally ready. For example, the 39th 
from Arkansas arrived at Camp Shelby in January with 92 percent 
of their soldiers dentally ready. This is a tremendous 
improvement from their last mobilization in October 2003, when 
the average readiness of a Guard unit reporting to MOB station 
was 13 percent. This improvement has enabled commanders to 
focus on collective training and maximize the boots-on-ground 
time in theater.
    To ensure mission success, this same approach is being used 
this year by Pennsylvania's 56th Striker BCT and 28th Combat 
Aviation Brigade, New Jersey's 50th infantry BCT, North 
Carolina's 30th Heavy BCT and the 56th/36th Infantry BCT from 
Texas. The same programs, policies and procedures that have 
been used to ready these BCTs for deployment need to be applied 
to our force as a whole.
    The challenge before the Army National Guard is the low 
level of baseline dental readiness. Only 43 percent of the 
force is dentally ready to deploy. Few Army National Guard 
guardsmen have private dental insurance, and only seven percent 
participate in the TRICARE Reserve Dental Program. Truly 
Herculean efforts must be applied by the states once a unit is 
alerted to achieve full dental readiness.
    To overcome these challenges, the Army National Guard in 
collaboration with the Office of the Surgeon General, U.S. Army 
Dental Command, the U.S. Army Reserve has developed a plan to 
improve baseline readiness that has been approved by the Army 
Guard leadership. This plan provides dental treatment for our 
soldiers outside of alert. Under the Army Selected Reserve 
Dental Readiness System, or ASDRS, states can provide dental 
treatment to soldiers through local contracts or the Tri-
Service Reserve Health Readiness Program, or RHRP. The U.S. 
Army Dental Command's First Term Dental Readiness Program will 
identify dental issues that must be corrected and ASDRS will 
then enable our soldiers to be treated at home.
    As recommended by the commission on the National Guard and 
Reserve, there should be incentives and enforcement of dental 
readiness. Guardsmen should not take unpaid leave to go to the 
dentist. Providing two medical readiness days per soldier is an 
incentive for soldiers to complete readiness requirements and a 
way for commanders to ensure compliance. The Unit Status Report 
and the Medical Protection System or MEDPROS provides leaders 
with the ability to track a unit's dental readiness.
    Increasing and sustaining dental readiness of the Guard 
requires appropriate staffing. The Army National Guard Dental 
Corps is currently less than 60 percent strength, and 40 
percent of those remaining dentists are retirement eligible. 
The Department of Defense has requested that Congress increase 
the retirement age of National Guard Medical Corps and Dental 
Corps officers from 64 to 68. The President's budget request 
now before Congress also seeks an increase in the level of 
full-time manning of our force. This is critical. We urge the 
Congress to support these proposals.
    This is a very exciting time to be in the Guard. The Army 
National Guard has deployed over 300,000 dentally ready 
soldiers in support of the Nation since September 11, 2001. 
Even so, we can do better. The Army National Guard is committed 
to improving our dental readiness. I am grateful for this 
opportunity to appear before the subcommittee and look forward 
to answering your questions.
    [The prepared statement of Colonel Sproat can be found in 
the Appendix on page 53.]
    Dr. Snyder. Thank you, Colonel.
    Captain Krause.

   STATEMENT OF CAPT. KERRY J. KRAUSE, USN, RESERVE AFFAIRS 
                OFFICER, U.S. NAVY DENTAL CORPS

    Captain Krause. Chairman Snyder, distinguished members of 
the committee, good afternoon and thank you for this 
opportunity to present to you today about the Navy's mission, 
that of ensuring dental readiness for all its Marines and 
sailors, both Reserve and active. Dental readiness is a state 
where a sailor or Marine is ready to deploy and likely not to 
experience a dental emergency while away from home.
    When a recruit is assessed, an initial exam is performed, 
and he or she is classified according to his or her dental 
disease. Annual exams are required for both Reserve and active 
component sailors and Marines. It is a triage system that 
prioritizes care based on the level of disease. A sailor or 
Marine is operationally dentally ready, ODR, if he or she falls 
into either Class 1, no disease, or Class 2, diseases unlikely 
to cause a dental emergency within 12 months.
    The goal, as stated by the Office of the Secretary of 
Defense for Health Affairs is for all services to reach 95 
percent ODR. There is currently no Navy-specific mandate. Over 
the past 3 years, incoming Navy and Marine Corps recruits have 
entered boot camp at an average ODR of 29 percent. At the Navy 
and Marine Corps boot camps, Navy dentistry has maintained a 
heavy dental presence that focuses on reaching the 95 percent 
goal before our recruits go back to Reserve status or reach 
their duty stations. While we have fallen short of the 95 
percent goal in the last few years, we have maintained an ODR 
in the 80th percentile.
    Historically through 2002, ODR percentage across the Navy 
has been in the mid 90's or above. Since 2002, however, it has 
fallen to 86, 87 percent as we shift resources to focus on 
personnel who are getting ready to deploy. For the Navy 
Reserve, of the 16,193 service members who are still drilling 
and have mobilized, they were 91 percent operationally dentally 
ready, with 1.5 being considered Class 3.
    For the Navy's active component, the last 112 shifts that 
have deployed have all had an ODR above 95 percent. Over the 
first quarter of Fiscal Year 2008, the overall ODR for the 
Marine Corps Reserve was 77.7 percent with 6.5 percent being 
considered Class 3. Our efforts to focus on deploying Marines 
and reservists have paid off, and the last two battalions to 
deploy in 2007 went out at greater than 95 percent ODR. Active 
duty Marine units deployed at 90 to 97 percent ODR.
    The Reserve challenges to ODR include dental officer and 
technician retention and recruiting and the loss of 17 percent 
of the Reserve Dental Corps billets. As the Navy Reserve Dental 
Corps becomes smaller, providing regular exams has become a 
challenge. We are meeting this challenge by using contract 
dentists, offering more incentives to retain and recruit, 
hosting dental stand downs for units to get exams all at one 
time and having traveling dental teams to go to remote 
locations.
    In addition, there is a perception by reservists that the 
cost of the TRICARE Dental Program, $11.58 a month plus 20 
percent cost share for fillings, is prohibitive. We are 
addressing this issue by increasing our education efforts for 
reservists on the value of this program.
    To maintain our ODR goals with decreased Reserve and Active 
Dental Corps personnel, we have increased the use of private-
sector dentists through the Military and Medical Support Office 
Program, MMSO. This shift in care of the private sector has 
increased the MMSO costs over the past 4 years from $3.7 
million in 2004 to $34 million in 2007. Retaining Dental Corps 
Officers in Reserve and active components has been increasingly 
difficult in recent years. Almost 70 percent of junior officers 
are leaving active duty after they complete their first 
obligated tour and are not affiliated with the active Reserve. 
One of the major issues has been dental assistant support, 
which is now beginning to improve. Another motivator for 
getting out of the service has been the rates of promotion and 
pay for Dental Corps officers. Promotion issues are improving, 
and we are hopeful the trend will be maintained. In addition, 
recent improvements by the National Defense Authorization Act 
increased additional special pay, ASP, for junior dental 
officers by $6,000 to $10,000 or $12,000 based on years of 
service. We expect this increase in the ASP will have a 
positive impact on retention. Today, with this increased pay, 
an active duty dentist in Washington, D.C., with 4 years of 
experience earns about $95,000 plus benefits.
    Improvements to Dental Corps accession bonuses for Reserve 
and active duty and stipends for Reserve scholarship programs 
have recently improved, and we thank you for your support. We 
are optimistic these enhancements have improved our recruitment 
efforts, as we at this point in the fiscal year expect to meet 
our accession goals. Currently, we are almost 100 percent ahead 
of where we were at this time last year. In the Reserve corps, 
we have already gained 14 new dental officers compared with 2 
in Fiscal Year 2007.
    Chairman Snyder, members of the committee, thank you again 
for the opportunity to testify before you and share with you 
how Navy dentistry is ensuring sailors' and Marines' dental 
readiness is our number-one priority. We appreciate your 
efforts to improve our recruitment and retention, as well as 
your interests in this very important issue. I stand prepared 
to answer any of your questions.
    Thank you.
    [The prepared statement of Captain Krause can be found in 
the Appendix on page 58.]
    Dr. Snyder. Thank you, Captain.
    Those were votes. But we have plenty of time to do your 
opening statement, Colonel Hart, and probably get at least one 
question or two in. So, Colonel Hart.

STATEMENT OF COL. DEBORAH L. HART, USAF, MOBILIZATION ASSISTANT 
TO THE AIR FORCE ASSISTANT SURGEON GENERAL FOR DENTAL SERVICES, 
         OFFICE OF THE SURGEON GENERAL, U.S. AIR FORCE

    Colonel Hart. Mr. Chairman and esteemed members of the 
committee, I appreciate the opportunity to appear before you 
today to discuss the dental readiness of the Air National Guard 
and Air Force Reserve.
    The ARC or Air Reserve Component Medical and Dental 
Services exist and operate within an Air Force culture of 
accountability where medics work directly for the line of the 
Air Force. Our home station facilities form the foundation from 
which the ARC provides combatant commanders a fit and healthy 
force. Our emphasis is on fitness, prevention, and surveillance 
so that we can be ready to be deployed if need be in less than 
72 hours.
    Air Guard and Reserve dental readiness is at 89 and 86 
percent, respectively. These statistics represent a steady 
upward trend over the past year and compare favorably to the 
Department of Defense goal of 95 percent. Our steadily 
improving dental readiness is attributable to many factors.
    First and foremost is command emphasis and support at all 
levels. The ARC holds unit commanders and individual service 
members responsible for the members' readiness to deploy and 
provides policies to ensure dental readiness.
    We have several methods an ARC member can receive their 
annual dental exam: by a military dentist, a civilian or 
TRICARE Dental Plan participating dentist, or by contractor 
dentists through the Reserve Health Readiness Program.
    Although medical squadrons track dental readiness rates, 
each ARC unit also has a nonmedical unit health monitor who 
tracks upcoming and overdue medical and dental needs. This 
creates ownership of medical readiness within the unit itself 
and has had an extremely positive effect on our readiness.
    ARC compliance policies may be the most effective of our 
tools to steadily improve readiness. Air reservist or guardsmen 
in dental Class 3, requiring urgent or emergent dental 
treatment, are placed on a medical profile and cannot have 
orders cut to deploy while profiled. Members are given a 
limited time frame to correct their dental deficiencies. 
Failure to have the required treatment can lead from profiling 
to administrative discharge of the member.
    Commanders do have the authority to grant a waiver to allow 
deployment of a member in dental Class 3, but this is extremely 
rare. All ARC units have regular health service inspections, 
and units with deficient programs are identified to line 
commanders, who are held accountable for the medical and dental 
readiness of their units.
    Another tenet of our success has been the full alignment 
with the active duty Air Force Dental Service in using the same 
Web-based reporting and tracking tool, the Dental Data System 
Web, or DDSW.
    Some challenges do remain for the ARC to be able to 
steadily improve our dental readiness, but the cost of meeting 
standards can sometimes be prohibitive, especially for the 
lower-ranking enlisted personnel. Even with TRICARE Dental Plan 
available, many U.S. areas have limited networks of dental 
providers. Furthermore, due to time constraints and rigors of 
basic military training and technical school, access to new 
accessions for dental treatment is very limited and usually 
consists of palliative care for urgent needs.
    Currently, there is no Transitional Assistance Management 
Program, or TAMP, available for dental care following 
deployment. And although the ARC and the active duty Air Force 
units use the same Web-based reporting tool, we are not yet set 
up to implement the electronic dental record, or AHLTA, which 
will surely improve accuracy of readiness as reservists and 
guardsmen transition from inactive to active status and back 
again.
    To improve dental readiness, Reserve and Guard units can 
utilize dentists from other units for support. Higher 
headquarters monitors readiness statistics, conducts site 
visits and provides assistance where needed. Geographically 
separated, remote or understaffed units can utilize contractor-
supported dental exams.
    Increased emphasis by commanders and unit health monitors 
and recruiters to inform Reserve and Guard members of the 
benefits presently provided under the Reserve Health Readiness 
Program may also improve readiness. We are also considering the 
introduction of a pre-accession dental screening exam to 
determine the dental class of an individual, which could help 
alleviate the problem of ARC members arriving on base, non-
deployable, Dental Class 3, after completion of basic and 
technical training.
    Last, we fully support implementing the electronic dental 
record in the ARC as it becomes available for deployment.
    In closing, Mr. Chairman, we are proud of our 
accomplishments and continued improvement of the Air Force 
Reserve and Air National Guard dental readiness rates. We thank 
you and the members of your subcommittee for your interest and 
support and look forward to your help in continuing that 
improvement. Thank you.
    [The prepared statement of Colonel Hart can be found in the 
Appendix on page 62.]
    Dr. Snyder. Thank you.
    Sasha will go ahead and put me on the five-minute clock 
here, and we will go through our five-minute rule here.
    The noise you heard there was we have one vote, perhaps 
followed by a series of votes. It is not clear yet. So we will 
have to take a break here probably after my questions. But we 
should have time to get in my five minutes.
    I wanted to say, first of all, I appreciated your, both 
written and oral, statements. It is not, as one pointed out, it 
is not a simple challenge that you have before you. And, of 
course, in some ways, the challenge you have reflects the fact 
that we as a Nation haven't solved a lot of health care issues, 
including dental. So you are ending up with a representative 
sample of our population that doesn't have the kind of dental 
health we need.
    I think some people when they heard about this thought that 
somehow this is a bit of a trivial problem. But, I mean, just 
for emphasis, the whole purpose of this is to avoid dental 
emergencies for people you are sending to a war zone for 7, 12 
or 15 months. And I can't imagine being in the mountains of 
Afghanistan or some place in Iraq with a big dental abscess, 
trying to figure out how I am going to get that resolved, get 
it treated. Not to mention you then are pulling someone away 
from their unit and causing a disruption of their unit.
    And then, as a couple of you pointed out, the second issue 
is if you have to deal with this during the pre-mobilization 
period, which is--or the pre-deployment period, we talked about 
the 3,500 10-hour days lost or the 5,000 10-hour days lost. We 
call them due dates, but for most people, they are training 
days. That means they are being pulled away from training for a 
war zone.
    And then the third part, I guess, is quality of life. I 
can't imagine sending somebody over there and cavalierly 
saying, well, you have got a big hole in your mouth, but we 
don't have time to do that right now, tough it up for 12 
months. I mean, that is not the kind of country--we have 
learned that that is short-sighted.
    So this is a very important issue in terms of accomplishing 
the kind of goals we want for our national security and foreign 
policy.
    Colonel Bodenheim, you, on page 10, of your written 
statement, you make the comment there, we need to enforce 
current policy. Now, several of you have called for different 
changes. Talk to me about that. Is there a way--if we made no 
changes at all--to solve this problem just by enforcing current 
policy? Or is that an unrealistic goal?
    Colonel Bodenheim. Current policy allows for an annual exam 
regardless of alert status. But if a soldier is found to be DFC 
3, Dental Fitness Class 3, during that exam and they are not in 
an alert status, they have no way of getting that care done at 
no cost to themselves. And so it does not solve the problem for 
the large group of un-alerted mobilized Reserve--of 
nonmobilized Reserve but not alerted, and the large number of 
cross-leveling that goes on is causing that loss of training 
time at the mobilization platforms. And that is unpredictable, 
and the only way to solve that is to have the care system that 
is there all the time, regardless of the alert status.
    Dr. Snyder. Captain Krause, you discussed the boot camp 
issue, that, I believe, the number of 80 percent in boot camp. 
Now, is that correct currently?
    Captain Krause. When they come in, they come in at 29 
percent.
    Dr. Snyder. And when they leave, currently about 80 
percent?
    Captain Krause. That is correct, 80 percent.
    Dr. Snyder. That would seem to me, recalling my boot camp 
days, when I couldn't go to the bathroom without somebody 
ordering me to, you have got a captive audience there. Why is 
that only 80 percent? These are not people that are going to be 
pulled away for deployments. I mean, you have got them there 
for probably three months. Why has that been a difficult--why 
are we missing one out of five of those people?
    Captain Krause. Well, thank you, chairman. Let me say this. 
It is probably more like 86 percent, and that is on the active 
side. Again, they have a lot of things that they have to 
accomplish in the boot camp, and they are busy, and they don't 
have a lot of time for dental. And we try to fit them in and 
get as much done as we can when we can. It is not that they are 
free to come to dental at any time during their training. They 
basically are busy. That is why they are there, to learn. The 
dental piece of it is--we push it as they come in from the day 
they come in, and we do it as much as we can as we can.
    Dr. Snyder. Well, we will pursue that later. My time has 
expired. What we will do is recess for the votes. I am sorry. I 
can't predict how long this will be. We have several staff 
members that can help you with any phone needs you have or if 
you need a private room or something. And we also have other 
staff, we have Jeanette James and David Kildee from Personnel 
Subcommittee. We have Art Wu here from the Veterans' Affairs 
Committee. They may have some questions to pick your brain 
while we are doing recess. We will be recessed.
    [Recess.]
    Dr. Snyder. We will go ahead and resume. I think that we 
are okay. We have already kept you almost into supper time, but 
I think that we are okay for a while now. Unfortunately, our 
members, for a hearing that started at 2:30, I figure after 
4:30 they could have other things; so we will probably not have 
as good a response as we did early on, but I apologize for 
that.
    And as soon as he is ready, we will recognize Mr. Akin.
    Mr. Akin. Just one second.
    Dr. Snyder. Sure.
    Mr. Akin. I certainly appreciate your all waiting around 
for quite a while. We have that happen in committees. All of a 
sudden they call votes, and we are not always sure when they 
are going to do it. So it does tend to break things up.
    I guess my question, and one that we have been talking 
about a little bit, is the transition of whose responsibility 
is what? So I am thinking about somebody that is--let's say 
they are on Reserve for some particular moment, and as they are 
on Reserve, I would guess that Reserve people, their dental 
care is paid for out of their own pocket. Is that typically the 
case?
    This is somebody that is going to be called up and then he 
is going to serve, so if you start at the beginning, when they 
are on Reserve, who pays for the dental care when he is just on 
Reserve? Anybody want to answer the question?
    Colonel Martin. I will start with if the individual is 
enrolled in the TRICARE dental program, then certain procedures 
like an exam and a cleaning will be covered by that dental 
plan, and they will not pay for any of that process.
    Mr. Akin. So a Reserve, somebody who is on Reserve, could 
have that insurance?
    Colonel Martin. Yes, sir.
    Mr. Akin. Okay. If they didn't have that, then they would 
normally just pay for it out of their own pocket?
    Colonel Martin. Yes, sir.
    Mr. Akin. Then they get called up. And let's say if they 
were not paying attention to their teeth, they are young and 
bullet-proof or something like that, if you took that scenario, 
then you would give them a dental exam probably when they came 
in. And then, let's say, for instance, they might have a cavity 
or two or something like that.
    So that would mean--would that be like Level 3?
    Colonel Martin. Yes, sir.
    Mr. Akin. Okay. So then you would send them to a dentist, 
and it might be, say, an Air Force or an Army dentist or 
something like that; or it might be somebody that you contract 
with, either which way. Would that be what would probably 
happen next?
    Colonel Martin. Yes, sir.
    Mr. Akin. And you would try to fit that in in their 
training as they are getting ready to be deployed or something 
like that. Is that typically when that would happen?
    Colonel Martin. I think, for the majority of times, that 
would be correct, that when they get ready to be mobilized, 
different assets will come into play as far as to take care of 
their dental needs.
    Mr. Akin. I am just thinking, my own son is a captain in 
the Marines, and as I recall, before he was deployed they 
always had--sort of everybody was working up and getting used 
to working together. So that would be the time probably they 
would get the dental care, which would bring them up to a Level 
1 or 2 or something like that, right?
    Colonel Martin. Yes.
    Mr. Akin. And then they are deployed for some number of 
months, right?
    Now, during the time that they are actually called up then, 
in a way, financially that is the responsibility of the service 
that has called them up. Is that right?
    Colonel Martin. That is correct, sir.
    Mr. Akin. Okay. And then when, let's say, they have been in 
Iraq for a year or 14 months or something like that and they 
come back, now at that point if they had something going on, 
let's say got some cavities because they drank too much Coke 
over in Iraq or something like that, then whose responsibility 
would it be to provide that dental care?
    Would that still be the active force or would that come out 
of DOD?
    Colonel Martin. I would need to go back a little bit. It 
really depends upon their status in Defense Enrollment 
Eligibility Reporting System (DEERS). If they are still on 
active duty status, then all their dental needs are going to be 
taken care of by the active duty benefit which--most of us can 
be taken care of inside of our military dental treatment 
facilities.
    Once they leave active duty status----
    Mr. Akin. Once they were deployed, if they were Reserve and 
they were deployed, wouldn't they be called active duty then?
    Colonel Martin. Yes, they would.
    Mr. Akin. Because--I am kind of confused because I have run 
into people that, you know, they are sort of halfway active and 
halfway citizen, and I can't keep all the conditions straight.
    Okay, so--but if they are deployed, they are active duty 
then, then they would be the responsibility of whichever branch 
they were in?
    Colonel Martin. Yes, sir.
    Mr. Akin. Or maybe would you--would at times an Army guy go 
to a Air Force dentist or whatever?
    Colonel Martin. Yes.
    Mr. Akin. Whatever the logical, close dental facility 
depending upon their situation, up to the time when they are no 
longer active or they are going back, probably to their Reserve 
unit, I would assume. So up to that day they are still the 
regular military.
    And then when they go back to the Reserve unit, then would 
that mean that they would go back to either that insurance 
policy they had or they would just pay for their own dental 
care themselves?
    Colonel Martin. Yes, sir. But there is also a benefit--if 
they serve for more than 90 days, there is also a VA benefit 
that they can also receive.
    Mr. Akin. So let's take our scenario they have been in Iraq 
for a year or something. Then they have been over 90 days, so 
then they would qualify; they wouldn't pay for everything out 
of their own pocket, it would be under the VA care then?
    Colonel Martin. That is correct. If their discharge papers 
say all their dental care was not completed prior to discharge, 
they could take that paperwork and submit it to the VA.
    The VA then would notify them of their eligibility. And 
then they can get that treatment taken care of at no cost to 
them.
    Mr. Akin. I am sorry, I am running over my time.
    Dr. Snyder. That is okay.
    Mr. Akin. Do they typically have a dental exam when they 
come back? Or is that something they could request?
    Colonel Martin. I think, sir, it depends upon the----
    Mr. Akin. The unit?
    Colonel Martin [continuing]. The units. And I would have to 
defer to the services to be able to answer that specific 
question.
    Mr. Akin. Does anybody know if it is policy one way or the 
other?
    Colonel Bodenheim. This is Colonel Bodenheim.
    No exam is given during the demobilization process with our 
current policy.
    Mr. Akin. Say that again.
    Colonel Bodenheim. No exam is given during the 
demobilization process with our current policy. If somebody 
comes back and they say that they have an emergency situation, 
they are treated by that dental treatment facility before they 
are REFRAD, or released from active duty. The demobilization 
period is about a four-to-six-day period. And in the 
demobilization process at this time there are about one or two 
hours for a unit to be processed through the dental 
administrative process for demobilization.
    Mr. Akin. So, from a practical point of view, let's say I 
come back and let's say I have had a tooth that has been 
bothering me; I don't know what is going on with it.
    Just maybe a regular soldier, would they probably then be 
looked at and given an exam and then a determination--say he 
had some cavities from drinking my Coke too much. Would you 
actually pick that up then?
    Colonel Bodenheim. Sir, what we would do is, if the soldier 
said that they had a condition that was causing them an 
emergency problem at that time, we would fix the emergent 
condition.
    Mr. Akin. Would that mean--I am just saying, you have a 
cavity; maybe it is not an emergency, your tooth is just sore 
or you suspect there may be a problem. Would that be an 
emergency per se or not?
    Colonel Bodenheim. That would not be an emergency.
    Mr. Akin. It would not?
    Colonel Bodenheim. Yes.
    Mr. Akin. So they might have some cavities and probably 
they would not be taken care of then until they actually were 
out. Is that probably what would happen?
    Colonel Bodenheim. That is correct, sir.
    Mr. Akin. Okay. So--but it is a fairly clear line if they 
get medical or dental care while they are on active, then it is 
an active duty responsibility. As soon as they are out, then--
okay.
    When they usually come back, though, on Reserve, isn't it a 
pretty short period of time when they actually get back in 
country and they are released? Is that pretty quickly, just 
like a week or so?
    Colonel Bodenheim. Yes, sir. It is a four-to-six-day 
demobilization period.
    Mr. Akin. Right. Okay.
    Well, I think--I will do a follow-up.
    Thank you, Mr. Chairman.
    Dr. Snyder. Mr. Buyer for five minutes.
    Mr. Buyer. Thank you.
    Colonel Bodenheim, when I came to San Antonio and you and 
three other officers testified with regard to this--I don't 
know what you call it, the Army Dental Care System Overview 
Support?
    Now that you have had an opportunity to reflect and you 
have also given testimony to Art Wu several times, upon your 
reflection, is it fair to say that you knew the numbers were 
not fair and accurate as they were testified to me when I was 
in San Antonio?
    Colonel Bodenheim. Sir, is this concerning the 
demobilization----
    Mr. Buyer. Yes.
    Colonel Bodenheim [continuing]. Process for the 1st through 
the 34th?
    Mr. Buyer. Yes.
    Colonel Bodenheim. Sir, my personal opinion is that the 
numbers are not--not incorrect; they are just a different way 
of looking at how the costs for that process were arrived at.
    Mr. Buyer. So is it fair to say that you were then 
following orders in that you were to make this program as 
costly as possible?
    Colonel Bodenheim. That is incorrect, sir. There were other 
courses of action that were actually more expensive.
    Mr. Buyer. So you, though, presented to me a study that 
said that a dental exam and radiographs, if you were to do it 
at demobilization, would be $307, which is at the 95th 
percentile times 100 for the country.
    Now, you can play wordsmith all you like, because others 
have already gone back in and looked at this and said, yes, 
these are bad numbers. Now, I am not your commander, so I am 
going to be straight up with you, because if I were your 
commander, I would prefer charges against three field grade 
officers and one general officer in the Army Dental Corps. I 
would.
    Fraud is a very serious charge. Another serious charge is 
called ``the intent to deceive.''
    You see, what you guys didn't know down there in San 
Antonio, what you do know now, is that this study was something 
that was created by the Surgeon General, Kiley then, and 
myself. So what you did in your little gamesmanship down there 
to sort of protect your idea of, Oh, we will do the 
contracting; at the same time we will utilize the VA.
    You guys really messed up. You really have messed up bad.
    Now, what hurts, what hurts the most is, soldiers aren't 
getting taken care of. Now, from the Army's point of view--
perhaps the Army now has this perspective, because you made it 
very clear to me when you said--not you, but it was Colonel 
Hanson, with General Czerw sitting right next to him, who 
looked me in the eye, saying, upon demobilization, ``not our 
mission.'' Said in such a strong, forceful, and yet almost 
arrogant tone, ``not our mission.''
    Okay. That is why I have had some conversations here with 
the chairman of this committee, because we in the VA then 
become your bill payer. The purpose here is really for Army to 
take care of Army.
    Now, when I look at this statement, I have been around long 
enough to know this statement is very poor that you have 
given--the written statement is very poor, because what is 
missing here, Colonel, somebody has scrubbed this thing. 
Whether it was scrubbed through the Surgeon General's Office or 
through OSD or the Office of Management and Budget (OMB), it is 
really scrubbed.
    Oh, I get the wordspeak at the end about solution sets and 
initiatives. That doesn't tell me anything. I also see where 
you embrace the existing provider contracts. I suppose that 
tells me that you really embrace Logistics Health Incorporated 
(LHI). Would that be accurate? The Dental Corps--you want to 
really embrace the LHI contract? Is that accurate?
    Colonel Bodenheim. Sir, I, personally speaking, I don't 
care what contractor is used to ensure dental readiness for our 
Army Reserve and Army Guard soldiers.
    Mr. Buyer. Who should be providing that dental care, 
Colonel?
    Colonel Bodenheim. It should be a multifactorial situation. 
First of all, for the active component, when soldiers are 
coming into basic training----
    Mr. Buyer. On demobilization (demob).
    Colonel Bodenheim. On demob, we should be able to provide 
it, as much as we can, within the four-to-six-day period. But 
again, Dental Command (DENCOM) does not determine what goes on 
in those four to six days.
    Mr. Buyer. Does DENCOM still embrace ``not our mission''?
    Colonel Bodenheim. We believe it is our mission----
    Mr. Buyer. So your testimony now has changed. Why has it 
changed?
    Colonel Bodenheim. Personally speaking, it has changed 
because we think it is the right thing to do in order to reset 
the entire force and to improve the dental readiness of both 
components.
    Mr. Buyer. All right. Then I suppose, personally, upon your 
reflection there at the moment, you recognized that what was 
done here was wrong.
    I will ask for further questions with regard to the reset, 
because it is 1 year plus 90 days.
    Dr. Snyder. We will go around again, Mr. Buyer.
    Colonel Sproat, I wanted to ask you on the first page of 
your written statement, and you mentioned it in your oral 
statement, you refer to the 39th and you say, ``To ensure 
mission success, the same processes and techniques are being 
used this year,'' and you list some other units.
    Give us a list, what do you consider to be the processes 
and techniques that the 39th used that you think should be used 
elsewhere or are being used elsewhere? Specifically, what are 
those processes and techniques?
    Colonel Sproat. Yes, sir.
    Each of our states is unique in terms of their makeup, in 
terms of their geography, in terms of their dispersion of 
guardsmen. And so there is really no one set solution that we 
can apply to the Nation. We depend on the states to develop 
courses of action for each of their populations to be able to 
get these units ready.
    There is a whole group of contract vehicles that are 
available to them, organic personnel to the unit that can be 
utilized to get those folks ready. We at the National Guard 
Bureau basically collect the best practices from each of these 
BCTs as they go through this process and then make sure that we 
learn as an organization how to do this best.
    Dr. Snyder. What are those best practices?
    Colonel Sproat. The best practices are early identification 
of the soldiers. Upon alert, making sure that every soldier has 
had an exam. Ideally, they have had that exam before alert. And 
then using the authority and the funding that we have to 
provide dental treatment for those soldiers during that alert 
phase, long before they go to the mobilization station.
    The goal is that units should not train soldiers that are 
not medically deployable, so that basically we don't invest in 
them in training if they end up being medically nondeployable 
in the end state.
    Dr. Snyder. Colonel Martin, the TRICARE benefit is 
essentially what, it is about $11-or-so a month, and then the 
maximum amount that can be paid is $1,200. Is that correct?
    Colonel Martin. Yes, sir. Yes, Mr. Chairman.
    Dr. Snyder. So you are investing $130 or $140 to offset the 
possible expense of $1,200. Is that a fair way of looking at 
it?
    Colonel Martin. Mr. Chairman, it is pretty fair, but there 
is also the part that I want to note is for preventive care; 
that doesn't count toward that $1,200.
    Dr. Snyder. That's right.
    Colonel Martin. So it is a little bit higher amount of 
benefit that you get for that amount of money.
    Dr. Snyder. And how do you--it seems like there are two 
issues. One issue is, why haven't more people taken advantage 
of that? The second issue is, even if somebody has insurance, a 
lot of people don't like going to the dentist.
    Now, how do you think both those issues ought to be 
addressed?
    Colonel Martin. Yes, Mr. Chairman.
    The first is that, in my written testimony, it was 8 to 10 
percent are currently enrolled in the program.
    Dr. Snyder. Very low.
    Colonel Martin. It is very low. There have been certain 
surveys, though, that have shown that reservists report that 
they have dental insurance either through their employment or 
their spouse's employment. So there is--upwards of 60 to 70 
percent say they have some type of dental insurance.
    The demographics of young people, a lot of them, you know, 
their teeth are not the most important thing right then. And 
so, you know, the value they place on having--paying $11 to 
have the dental insurance is probably not, you know, to the 
level where they say, okay, yes, I will sign up for that 
program. So those are some of the factors that work into why, 
you know, that percentage is low, in the 8 to 10 percent.
    We are doing everything we can to improve it. In fact, we 
incentivized our current contractor with an award fee if they 
can improve that percentage. And they have done quite a bit of 
marketing to that group to increase the rates.
    To the second question, as to why do certain groups not 
utilize, nationwide, those who have dental insurance, it is 
about--a little over 50 percent actually will utilize a dental 
service. For the TDP it is much higher, at 71 percent.
    Part of that, I think, is self-selection. People who are 
enrolling in the program know they have a dental need, and so 
they pay that money, and then they are going to go use it. And 
so that is why I think you have a little bit higher utilization 
rate for that group of people.
    Dr. Snyder. Colonel Bodenheim, was it you that talked about 
this review that is going on with General Schoomaker?
    Colonel Bodenheim. Yes, sir.
    Dr. Snyder. You discussed that?
    Now, that started--like, last month, sometime in March?
    Colonel Bodenheim. That is correct, sir.
    Dr. Snyder. What is going to be the product that comes out 
of that? Is there going to be a written report that will be 
available to all of us, or what is going to be the end result 
of that?
    Colonel Bodenheim. Yes, sir.
    The prioritized list of initiatives is working through the 
Army leadership at this time.
    Dr. Snyder. And so you anticipate there will be a report 
that will be shared publicly and with the Congress and----
    Colonel Bodenheim. That is correct, sir.
    Dr. Snyder. And do you anticipate that will be sometime 
toward the end of May?
    Colonel Bodenheim. I was told that it should be within 90 
days.
    Dr. Snyder. From--within 90 days from when it started, 
which was in March. So my math is pretty good.
    There may be some things in there that we can be helpful 
with during the Defense bill markup. But that is going to be 
around the same time.
    Do any of you have a report--I think some of you did, but 
specific legislative changes? One of you mentioned--I guess 
you, Captain Krause--about the need for additional full-time 
personnel. But are there specific legislative changes that we 
need to make or consider making?
    We will just go down the line, starting with you, Colonel 
Martin.
    Colonel Martin. The only one that I would--and this is in 
my opinion; the only one I would be interested in would be a 
little clarification in the TAMP dental benefit language that 
is currently out there, so that we could provide the 
appropriate--a more clear benefit for those who are being 
deactivated.
    Dr. Snyder. Colonel Bodenheim.
    Colonel Bodenheim. I would not want to comment on any 
legislative changes until the Army leadership has worked 
through the initiatives.
    Dr. Snyder. Colonel Sproat.
    Colonel Sproat. Sir, we had the two: the increase in age 
from 64 to 68 for our dentists, and then full-time manning for 
the Army National Guard.
    Dr. Snyder. Right.
    Captain Krause.
    Captain Krause. I stand by what he said.
    Dr. Snyder. Colonel Hart.
    Colonel Hart. I have nothing to offer.
    Dr. Snyder. The two days medical readiness that I think you 
mentioned, that does not require a legislative change?
    Colonel Sproat. No, sir. That is Army policy.
    Dr. Snyder. Mr. Akin for five minutes.
    Mr. Akin. I don't have any further questions.
    Dr. Snyder. Mr. Buyer for five minutes.
    Mr. Buyer. Thank you.
    You know, Colonel Bodenheim, in answer to my first question 
about, did you know that these numbers were not fair and 
accurate, you thought for a moment and your answer was, ``It 
was a method.'' You are right. In any form of enterprise, 
especially when foolishness occurs, there are different types 
of methods that are used.
    Now, it is whether the method is credible or not is the 
question. Right? So the credibility of the Army Dental Corps 
with regard to how you handle this initiative is a question.
    Now, others have had the opportunity to scrutinize your 
work product. They find it highly unusual and an aberration of 
customary practice. Now, that was either ordered to be done, 
somebody used some type of curious math for a purpose, and it 
was to deceive, I believe.
    Now, you guys didn't know that Congress was involved in 
this, so obviously it was going to the surgeon general. At the 
time this was a surgeon general who then gets dismissed, and 
you guys must be tickled to death. Gee, this is going to go 
away, because it is not our mission. Even though now today you 
are telling me it is your mission.
    You see, you guys are not out of the woods. I want you to 
know that. Because when you go on back down to San Antonio and 
they tell you, hey, how did it go up in Washington, you are not 
out of the woods. You are not out of the woods because, I 
suppose, I am upset.
    Anybody that cares about their soldiers, making sure they 
get the proper care, should be upset, especially if we are 
going to make it part of the Army Force Generation (ARFORGEN) 
model.
    Now, these initiatives that you don't want to talk about, I 
am not foolish, I can almost see this, we have got the 
leadership of the Army Dental Corps going, I don't like this 
study, we don't want to do demob, it is not our mission, we 
will cook the books, we will show the decision-making 
authorities it is not cost-effective.
    You get caught. Then those who catch you go, oh, my, we had 
better do an assessment.
    I asked your dental chief, what is this capabilities gap? 
See, I came to San Antonio with pure intent to fund 
capabilities gap and work cooperatively with the gentleman 
behind me, because I work with him also on the VA. That is not 
how I was treated.
    Now I learn in your testimony that you have done your, 
quote, ``capabilities assessment.'' Has that been complete, yes 
or no?
    Colonel Bodenheim. That capabilities assessment is still 
working through the Army leadership, sir.
    Mr. Buyer. Okay. Working through the Army leadership. So it 
has been completed, but not signed off; that is what that 
means. So there is a number already attributed to this, but you 
are not willing to give it to the Armed Services Committee 
because somebody hasn't signed off. Okay.
    You see, General Cody was going to come over here and tell 
me, but I asked him not to do that, because I wanted him not to 
testify to me in my position as the VA. I am working 
cooperatively with the Armed Services Committee. That is 
extremely important. That is why I said, you guys are not out 
of the woods. You are in more trouble than you could ever 
imagine.
    The credibility of the Army Dental Corps, it just bothers 
me so much. I have so many dentists in my family. I grew up as 
a kid, watching; my dad and I ready to go on a float trip and 
go fishing, and we can't because somebody has showed up who got 
his teeth knocked out in a Little League game. And the kid 
wasn't my dad's patient, but he takes care of him.
    It is like you are going to take care of your active duty 
soldiers. But those guardsmen and reservists, they are not your 
patients; we will take care of them on premobilization 
(premob), but on demob, we are going to have somebody else take 
of care of them. We will have contractors take care of them, we 
will have the VA take care of them.
    No, they are Army green. If we are going to buy into the 
ARFORGEN model, it all gets caught in the cycle; we here in 
Congress are prepared to do that.
    So here is my message when you go back to San Antonio. You 
tell the general down there, stop fighting us and be 
forthright. No games. Tell him that for me?
    Colonel Bodenheim. Yes, sir.
    Mr. Buyer. No games.
    Now, I don't know where this is going to go. We will let 
the investigations continue. I can tell you how disappointed I 
was when Art Wu went back down a second time, and individuals 
whom he then spoke to had feigned memory.
    Oh, I have been a prosecutor and I have been a defense 
lawyer, so I understand what feigned memory is. I don't recall, 
I don't have recollection, that may not be how it happened, 
that's not what I understood what was said.
    Just be careful, okay?
    Colonel Bodenheim. Yes, sir.
    Dr. Snyder. I wanted to ask, the issue on the readiness of 
our Reserve component; I think it is an important issue. I 
think it came up twice with the 39th, and we have talked about 
that. You all think it is an important issue.
    Are we making too big a deal about it? The bottom line is, 
it gets done. They get mobilized. Teeth get fixed adequately. 
Have you all done a cost analysis about whether the investment 
would get us where we would ideally like to be at the time of, 
you know, alert and mobilization? Is that going to be so cost 
prohibitive we are better off by sticking with our kind of 
scrambling-around method as we look for processes for the units 
to meet this goal?
    I am playing a bit of devil's advocate. Does anybody have 
any comment there?
    Colonel Bodenheim. Sir, I will speak to that.
    What we need to get out of is the idea of what I call 
``just-in-time dentistry.'' That is not the right thing for 
soldiers. So when you take a soldier to a mobilization platform 
and they are still in DFC 3 condition, not only are they losing 
training hours, but they are getting a lot of dentistry done in 
a short amount of time; and that is not the right way to treat 
soldiers.
    What we need is a continuous, flowing system that allows 
Reserve component soldiers access to no-cost dental care on a 
year-round basis, because we never know when an unalerted 
soldier is going to be cross-leveled as a replacement to a unit 
and then becomes an obstacle to the training of that unit.
    For instance, on the 39th replacements that came after the 
main body had successfully validated, many of those soldiers 
had less than 30 days of training, or about a 30-day training 
period before they went off with their main unit. If those 
soldiers are not fixed or do not have the ability to be fixed 
at no cost prior to that time, then we are being unfair to that 
soldier to miss those training hours.
    Dr. Snyder. The issue of recruiting and retention of 
dentists, how are we going to solve that?
    Colonel Sproat. Sir, we have a program that is 
predecisional, but I can share with you that the Army National 
Guard takes the crisis very seriously. We plan to use state 
active duty dollars to put----
    Dr. Snyder. If I may interrupt, we consider the recruitment 
and retention of dentists a crisis?
    Colonel Sproat. Sir, we are getting there. When we have 60 
percent of our dental billets filled, and 40 percent of those 
people are retirement eligible, when they are faced with a 
deployment, they may drop their papers. The numbers decrease 
every day.
    Dr. Snyder. I interrupted you. Please continue.
    Colonel Sproat. Yes, sir.
    We have a new program for medical and dental students where 
we put them on active duty at their medical or dental school as 
a recruiter. This is a Guard program, and basically they 
recruit their fellow students.
    We pay them as second lieutenants. They receive a housing 
allowance. They do not receive any tuition assistance, but this 
enables them to have a good standard of living while they are 
in dental school or medical school. And then they can also take 
advantage of additional Guard programs when they are in their 
residency programs or their training programs to pay back their 
tuition.
    So we think this is an innovative program that is in the 
last stages of approval. And we think that is going to be a 
very good fix five to six years from now when we have those 
graduates coming into the Guard.
    Dr. Snyder. Do any of you have any comments about the 
issue--I think it was mentioned by more than one of you--on the 
issue of medical records and electronic medical records? Is 
that exacerbated in the area of dentistry, the issue of 
transferability of medical records? Does anybody have any 
comments?
    Colonel Bodenheim. Sir, I will comment.
    As far as electronic dental records, you saw my written 
testimony that DENCLASS, originally created for the Army 
National Guard as an electronic exam system record and tracking 
system, will be expanded to the U.S. Army Reserve; as well, the 
Reserve Health Readiness Program will use it.
    One of the number one reasons for soldiers presenting as a 
no-go at a mobilization site is due to missing records or parts 
of missing records. And so we will be able to solve many of 
those issues of reexamining a person because we don't have a 
record showing their DFC rating and the ability to validate 
that record.
    Dr. Snyder. You have anything further?
    Mr. Akin. Just to piggyback on your statement, you said the 
best way to handle dental care is on a consistent basis. You 
don't just do this emergency and then let it run for 10 years 
and find you got a mouthful of trouble when you come back.
    Is the implication of that, then, that you would have 
people who were on Reserve covered? Are you saying they would 
be covered under some type of dental care then?
    Colonel Bodenheim. Well, currently a soldier is permitted 
to have an annual exam regardless of their alert status. Upon 
alert, they are allowed to get DFC, or Dental Fitness Class, 3 
treatment done at that time.
    What I am stating is that we need to expand this to 
unalerted soldiers so that we do not have the problem with 
cross-leveled soldiers or replacements, causing lost training 
time at mobilization sites, and to get us out of the just-in-
time dentistry mode, which is not how any of us would want to 
be treated in our own treatment.
    Mr. Akin. So you are saying somebody who has not been 
activated, but is in Reserve.
    Currently, my understanding is, they can be covered one of 
two ways: Either they have this insurance that goes up to 
$1,200, or they are just paying for it out of their pocket, or 
maybe their employer gives them something or whatever it is.
    Colonel Bodenheim. That is correct.
    Mr. Akin. And you are saying, you would like to see those 
people making sure they all have got solid dental care, so that 
they don't carry the dental problem in as soon as you activate 
them.
    I think that's what you are saying, right?
    Colonel Bodenheim. That is correct, sir. And no cost to the 
soldier.
    Mr. Akin. At no cost.
    So who is going to pay for it then, would you say? Who 
would pay for that program then? Or is that something that is 
in your plan?
    Colonel Bodenheim. Those would be part of the initiatives 
working through the Army leadership.
    Mr. Akin. Okay. And so--but can you say who would pay for 
that? Is that going to be a Department of Defense expense or 
would that come from somewhere else?
    Colonel Bodenheim. I would like to take that question for 
the record.
    Mr. Akin. Okay. That's fine as far as I am concerned. Thank 
you.
    That's all I have, Mr. Chairman.
    [The information referred to was not available at the time 
of printing.]
    Dr. Snyder. Mr. Buyer has a final question.
    Mr. Buyer. Thank you. Really there are two.
    There is a demob reset question. And when you go back and 
said, okay, it is our mission, the numbers were recalculated, 
it shows that this--that the dental exam study, once they 
recalculated the numbers, showed that it was cost-effective, 
i.e., then success.
    Can you tell me whether there was any planning done to do 
future-type actions against brigades, to do future demob for 
brigade-size assets that are returning based on the success of 
this study?
    Colonel Bodenheim. We have plans that are available to do 
reset based upon this study.
    Mr. Buyer. Okay. All right. Wait a minute. Then based on 
the study. Wow. Okay.
    So now, wow, that testimony that you did down in San 
Antonio, that was all a mistake? Now that they have been 
recalculated, you have now bought into, yes, it is cost-
effective, it is our mission; and planning for that success is 
occurring right now is your testimony?
    Colonel Bodenheim. Sir, what I meant to say is that we know 
the number of personnel that it would take, the facilities, et 
cetera, in order to do the mission.
    Mr. Buyer. All right.
    The demob reset, is it 1 year plus 90 days is the demob 
reset? Do you know what the demob reset is?
    Colonel Bodenheim. I am unsure of the question.
    Mr. Buyer. Can you turn and ask somebody who may know?
    Colonel Bodenheim. At present it is 180 days.
    Mr. Buyer. Are you kidding me? When did this occur?
    Colonel Bodenheim. This occurred recently.
    Mr. Buyer. How recent? You were 1 year plus 90 days. Now 
you have gone to 180 days. Was that an evidence-based decision 
or did somebody capriciously push it off another 90 days?
    Colonel Bodenheim. I do not know that answer, sir.
    Mr. Buyer. Who made the policy decision to push it another 
90 days?
    Colonel Bodenheim. I cannot answer that question.
    Mr. Buyer. You cannot answer it because you know and won't 
tell me, or you do not know what the answer is?
    Colonel Bodenheim. I do not know what the answer is, sir.
    Mr. Buyer. See, Mr. Chairman, this is really pretty 
concerning, because if the Army is basically--first of all, it 
is concerning when they do an annual plus 90 days because they 
are then saying that the 90 days is an acceptable level of 
neglect.
    Now--the acceptable level of neglect is now another 90 
days, which is 180 days before you can ever do a 
reclassification. That means the Army active duty dental corps 
is not going to be doing dentistry for our guardsmen and 
reservists.
    What is the justification--give me your personal opinion; 
that is what you like to give--give me your personal opinion on 
why 180 days is a good policy or not.
    Colonel Bodenheim. My personal opinion, sir, is I was 
surprised by the 180 days.
    I cannot answer where it came from because I do not know.
    Mr. Buyer. Okay. If you are surprised, would you advocate 
to change it, to change that policy?
    Colonel Bodenheim. I would advocate to change it.
    Mr. Buyer. You bet. All right.
    I yield back, Mr. Chairman. That needs to be changed.
    Dr. Snyder. Gentlemen, thank you all for being here. We 
kept you about 2-1/2 hours. I apologize for the votes.
    Members may have some questions for the record.
    Dr. Snyder. We certainly would like to hear the results as 
your decision-making process completes itself with General 
Schoomaker and others; and I hope you will share that with the 
committee.
    We are adjourned.
    [Whereupon, at 5:03 p.m., the subcommittee was adjourned.]
      
=======================================================================

                            A P P E N D I X

                             April 23, 2008
      
=======================================================================

              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 23, 2008

=======================================================================
      

    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
      
=======================================================================

             QUESTIONS AND ANSWERS SUBMITTED FOR THE RECORD

                             April 23, 2008

=======================================================================
      
                   QUESTIONS SUBMITTED BY DR. SNYDER

    Dr. Snyder. Is there anything you didn't have an opportunity to 
share during the hearing that would be valuable to the subcommittee's 
enquiry? Please provide the subcommittee with any further written 
testimony or data you think is relevant.
    Colonel Martin. I would like to add a few comments regarding 
available dental programs that I covered in my written testimony. I 
believe these comments may be relevant to potential outcomes that may 
arise from this hearing.
    In my written statement, with regard to deactivated Reserve 
Component members, I wrote, ``If treatment is required, the member may 
apply for Department of Veterans Affairs (VA) treatment within 180 days 
of release from active duty. On average, about 18 percent of eligible 
deactivated reservists have utilized this benefit over the past three 
years.''
    Although the VA benefit was mentioned in my written testimony, it 
was not discussed further during the hearing. Outpatient dental 
benefits are provided by the VA, according to law. Per VA Health Care 
Fact Sheet 164-3, ``Outpatient Dental Treatment,'' dated March 2008, it 
is noted that ``Effective January 28, 2008, recently discharged 
veterans with a service-connected non-compensable dental condition or 
disability who served on active duty 90 days or more and who apply for 
VA dental care within 180 days of separation from active duty, may 
receive a one-time treatment for dental conditions, if the dental 
condition is shown to have existed at the time of discharge or release 
and the veteran's certificate of discharge does not indicate that the 
veteran received necessary dental care within a 90-day period prior to 
discharge or release.'' VA Health Care Fact Sheet 164-3 can be found at 
www.va.gov/healtheligibility/Library/pubs/Dental/Dental.pdf. Although 
underutilized, this is a current dental benefit available to many 
deactivated Reserve Component members. Increased utilization could have 
an effect on Reserve Component dental readiness.
    In my written testimony, I also described the eligibility and 
enrollment of Reserve Component members in the TRICARE Dental Program 
(TDP). The TDP is a program that allows Reserve Component members to 
maintain continuity of dental care in both pre-activated and 
deactivated status. Unfortunately, Reserve Component enrollment is very 
low. Service feedback has indicated that enrollee cost shares may have 
an effect on the low enrollment of Reserve Component members.
    Dr. Snyder. Is there anything you didn't have an opportunity to 
share during the hearing that would be valuable to the subcommittee's 
enquiry? Please provide the subcommittee with any further written 
testimony or data you think is relevant.
    Colonel Bodenheim. During the testimony, I did not have the 
opportunity to clarify the career cycle of an Army Reserve Components 
(RC) Soldier and outline the ideal associated dental readiness 
maintenance system required to achieve an operationalized, dentally fit 
Army RC which minimizes ``just in time'' dentistry at the mobilization 
platform, poor dental health of cross leveled Soldiers and the 
subsequent loss of training time that I outlined during my testimony. 
Dental disease is not a fixed health condition such as an appendix, 
which upon infection, requires removal one time for a successful health 
outcome, but is a persistent disease process requiring a continuum of 
care in order to reach a consistent baseline of successful deployment 
dental readiness. As an example of the persistent nature of dental 
disease, the 1/34th BCT from Minnesota was deployed from Camp Shelby, 
MS at a 100% dental readiness status [Dental Fitness Class (DFC) 1 and 
2] but demobilized at Ft. McCoy with a DFC 3 rate of over 9%.
    Each RC Soldier enters the Army through Initial Entry Training 
(IET) which consists of a combination of Basic Combat Training followed 
by Advanced Individual Training (AIT). Some RC Soldiers complete both 
their Basic and AIT training consecutively, but significant percentages 
complete their training using a split training option over a two year 
period. RC Soldiers are not considered deployable until they have 
completed both parts of their training. During IET, the Army Dental 
Care System (ADCS), under the operational command of the U.S. Army 
Dental Command (DENCOM), examines and treats IET Soldiers (both AC and 
RC) within the First Term Dental Readiness (FTDR) program. The future 
goal (FY 2011) is to return Soldiers to their units in a 95% DFC 1 or 
DFC 2 status upon completion of their IET.
    After IET, RC Soldiers return to their unit and are integrated into 
the Army Force Generation (ARFORGEN) process. The ARFORGEN process is 
used to manage the force and ensure the ability to support demands for 
Army forces. The Army Selected Reserve (SELRES) goal is to maintain 
dental readiness at the 95% DFC 1 or DFC 2 level within the ARFORGEN 
cycle and outside of alert for mobilization, by using the Army SELRES 
Dental Readiness System (ASDRS) which provides the policy authorization 
for RC unit commanders to maintain the dental readiness (annual exams 
and DFC 3 treatment) of their Soldiers through the Reserve Health 
Readiness Program (RHRP), a DOD contracted medical/dental readiness 
provider network, Army National Guard (ARNG) direct contracts, or RC 
military dental personnel.
    Upon mobilization alert, units improve their dental readiness, 
currently averaging approximately 73%, by using the same contracted 
entities in the ASDRS program under contingency operations. Upon 
mobilization, the ADCS validates the dental readiness of mobilized RC 
Soldiers at the mobilization station, determines their GO (DFC 1 or 2) 
or NO GO (DFC 3 or 4) status and deploys them at 100% GO status. The RC 
Soldier is deployed and receives necessary theatre care from deployed 
dental assets to sustain the fight. Upon re-deployment, the RC Soldier 
demobilizes and receives a dental examination within the ADCS (mission 
to be initiated in July 2008). DFC 3 conditions identified during the 
examination and which cannot be treated during the short 4-6 day 
demobilization timeline are documented on a voucher system. The Soldier 
returns to his/her unit and their voucher is managed under the 
contracted entities of the ASDRS to complete DFC 3 treatment. The 
ARFORGEN and associated dental readiness maintenance cycle of the 
Soldier is completed. Throughout the cycle, the RC Soldier's dental 
readiness radiographic and exam data will be captured and archived into 
the Army Dental Digital Repository (ADDR) as well as the RC electronic 
exam record and tracking system, DENCLASS. These electronic systems 
will be synchronized during the summer of 2008 and will reduce the 
duplication of processes and resources throughout the RC dental 
readiness maintenance cycle.
    Each consecutive phase of the dental readiness cycle depends upon 
the previous phase's success in implementing its dental readiness 
mission. Phases that are not implemented or poorly implemented reduce 
the effectiveness of the previous phase due to the chronic nature of 
dental disease because dental treatment increases in complexity and 
cost in direct proportion to the amount of time the dental condition 
remains untreated. Operationalization of the RC force should ideally 
include a continuous dental readiness maintenance program throughout 
the career cycle of the Soldier.
    Dr. Snyder. Please provide an update of the Army's progress toward 
implementing a plan to address low dental readiness rates. Please 
provide documentation of decisions and implementation plans.
    Colonel Bodenheim. On May 27, 2008, the Army Chief of Staff 
approved a plan to address RC Soldiers' dental examinations and 
readiness care through the Defense Health Program (DHP) during period 
in which the Soldiers' duty status entitles them to active duty dental 
care. In addition to the period of active duty dental care while the 
Soldier is at the mobilization platform, these periods will mainly 
occur during Initial Entry Training through the First Term Dental 
Readiness (FTDR) program and through the Dental Demobilization Reset 
(DDR) at demobilization sites. In anticipation of a MEDCOM Operational 
Order (OPORD) directing the DDR mission, the DENCOM:

        1. Initiated a warning order during a 4 June VTC to its 
        Regional Dental Commanders.

        2. Is prepared to create and issue a DENCOM OPORD upon receipt 
        of the MEDCOM OPORD.

        3. Is prepared to create an All Army Activities (ALARACT) to be 
        staffed in order to coordinate support with other Army 
        commands.

        4. Briefed a Contingency Operation Plan on 4 June, to the 
        Deputy Surgeon General outlining general DDR operational plans 
        and FTDR general plans.

        5. Chief of Information Management is identifying IM/IT 
        equipment requirements.

        6. Chief of RC Mobilization/Demobilization Operations and the 
        Special Staff to the Assistant Surgeon General (Force 
        Projection) Lean Six Sigma Certified Black Belt jointly 
        identified on 5 June the detailed patient and digital 
        information DDR processing flow requirements. This includes the 
        creation of a digital voucher that can be transferred to the 
        ASDRS. The DENCOM Chief of Information Management was briefed 
        on the digital information requirements and began work on those 
        requirements.

        7. Is initiating Dental equipment purchases. As examples, 
        equipment is being ordered for the new Camp Shelby SRP dental 
        station and the new Camp Atterbury dental clinic.

    The Army SELRES Dental Readiness System (ASDRS) will focus 
resources on RC Soldiers most likely to be mobilized and called to 
active duty. Elements of the ASDRS program can also be employed to 
address dental readiness needs identified during the DDR examination. 
The Army National Guard is currently conducting demonstration projects 
to evaluate the effect of the ASDRS program on training and readiness. 
The United States Army Reserve, through a dental Ready Response Reserve 
Unit (R3U) pilot program, will perform a pre-mobilization dental 
readiness mission in late July. The Army is addressing RC dental 
readiness through multiple approaches using AC and RC dental personnel 
as well as contracted solutions.
    Dr. Snyder. Is there anything you didn't have an opportunity to 
share during the hearing that would be valuable to the subcommittee's 
enquiry? Please provide the subcommittee with any further written 
testimony or data you think is relevant.
    Colonel Hart. I have nothing further to add to the previously 
submitted testimony.
    Dr. Snyder. Is there anything you didn't have an opportunity to 
share during the hearing that would be valuable to the subcommittee's 
enquiry? Please provide the subcommittee with any further written 
testimony or data you think is relevant.
    Captain Krause. Retention of Active Duty (AD) and Reserve Component 
(RC) dentists has become an increasing concern. 70% of all dentists 
leave AD between three and six years with most choosing not to join the 
Reserves, which has also contributed to the Reserve shortages.
    In FY07, the direct care dentist manpower (AD, Government Schedule 
and contract) dropped to approximately 1160. Even with the increased 
utilization of the Military Medical Support Office (MMSO), Operational 
Dental Readiness (ODR) could not be maintained at our goal of 95%. ODR 
is currently at 89%.
    The 220+ RC dental officers when on two week Annual Training (AT) 
orders primarily work at the recruiting centers assisting the AD force. 
The reduced Reserve Dental Force size has resulted in decreased ability 
to provide AT and Active Duty for Special Work (ADSW) surge support to 
AD dental treatment facilities at Great Lakes, Marine Corps Recruit 
Depot (MCRD) SD, MCRD Parris Island, and Marine Corps Bases (MCBs) 
Camps Pendleton and Lejeune. On drilling weekends, RC dentists 
primarily do examinations on reserve units to help identify dental work 
the reservists need to obtain (offered through the Tricare Dental Plan 
(TDP)).
    In the FY08 NDAA, Congress prohibited further medical and dental 
conversions. Currently, Navy Medicine plans to restore approximately 
130 active duty dental officers and over 500 assistant billets from 
FY10-13. This should help improve direct care treatment. Recruitment 
for AD and RC is improving considerably with increased bonuses and 
retention is also expected to improve.
    Reserve Dental Officers have Navy training, knowledge, and 
experience. They can provide accurate, cost effective, quality dental 
support to the Active and Reserve Force. To meet the dental support 
requirements of the Navy the size of the RC Dental Force would also 
need to be increased.
    Dr. Snyder. Is there anything you didn't have an opportunity to 
share during the hearing that would be valuable to the subcommittee's 
enquiry? Please provide the subcommittee with any further written 
testimony or data you think is relevant.
    Colonel Sproat. Thank you for the opportunity to appear before the 
Committee and present the views of the Army National Guard. I believe 
my written and oral testimony adequately addressed the needs and 
concerns of the Army National Guard.

                                  <all>

</pre></body></html>
